No. 19-1180

In the Supreme Court of the United States
ROBERT RAD CLIFFE ET AL.,
Petitioners,
v.
JOSE HERNANDEZ ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
AMENDED APPLICATION TO THE
HONORABLE JUSTICE ELENA KAGAN AS
CIRCUIT JUSTICE

MICHAEL W. SOBOL
LIEFF, CABRASER, HEIMANN
& BERNSTEIN, LLP
Embarcadero Center West
275 Battery Street,
29th Floor
San Francisco, CA 94111

MICHAEL A. CADDELL
Counsel of Record
C Y N T H I A B. C H A P M A N
A M Y E. T A B O R
CADDELL & CHAPMAN
628 East 9th Street
Houston, TX 77007-1722
(713) 751-0400
(713) 751-0906
mac@caddellchapman.com

APRIL 24, 2020

Counsel for Respondents

AMEMDED APPLICATION FOR AN EXTENSION OF TIME
Pursuant to this Court’s Order of March 19, 2020 regarding the ongoing public
health concerns relating to COVID-19, Respondents Jose Hernandez, et al. request a
one-week extension of time to file their Brief in Opposition to Petitioners’ Petition for
Certiorari. Petitioners do not oppose the requested extension. In support of their
motion, Respondents state as follows:
1. On February 7, 2020, the court of appeals denied the Petition for Rehearing
and Rehearing En Banc in the action below.
2. Petitioners filed their Petition for Certiorari on March 16, 2020; and this
Court docketed the appeal on March 30, 2020.
3. The current deadline for Respondents to file their Brief in Opposition is
April 29, 2020.
4. Due to difficulties associated with COVID-19, despite their diligent efforts,
Respondents’ counsel have encountered delays in drafting their Brief in Opposition.
5. Because of these difficulties relating to COVID-19, Respondents require an
additional week to file their Brief in Opposition to the Petition, which is reasonable
under the circumstances.
6. Counsel for Petitioners do not oppose the requested extension.
7. Because the grounds for the extension are difficulties relating to COVID19, and the length of the extension requested is reasonable, the Clerk should grant
this motion as a matter of course.
Accordingly, Respondents request that the deadline for them to file their
Opposition to the Petition for Certiorari be extended until May 5, 2020.

–2–

Dated: April 24, 2020

Respectfully submitted,
/s/ Michael A. Caddell
Michael A. Caddell
Counsel of Record
Cynthia B. Chapman
Amy E. Tabor
C A D DE L L & C H AP M AN
628 East 9th Street
Houston TX 77007-1722
(713) 751-0400
(713) 751-0906 (fax)

Michael W. Sobol
L IEF F , C A B R A S E R , H E IM A N N
& B E R NS T E I N , LLP
Embarcadero Center West
275 Battery Street, 29th Floor
San Francisco CA 94111-3339

James A. Francis
David A. Searles
F RA NC IS M A IL M A N S O UM IL A S , P.C.
1600 Market Street, Suite 2510
Philadelphia PA 19103

Stuart T. Rossman
Charles M. Delbaum
N AT I O NAL C O NS UM ER L A W
C E NT ER
7 Winthrop Square, 4th Floor
Boston MA 02110

Leonard A. Bennett
Matthew Erausquin
C O N S UM E R L I T I G A T IO N
A S S OC IA T E S , P.C.
12515 Warwick Blvd., Suite 201
Newport News VA 23606

Lee A. Sherman
O. Brandt Caudill
C AL L AH A N , T H OM P S O N ,
S H E RM A N & C AU D I L L
2601 Main St., Suite 800
Irvine CA 92614
F. Paul Bland
P U B L I C J U S T I C E , P.C.
1825 K Street NW, Suite 200
Washington DC 20006
Attorneys for Respondents

–3–

CERTIFICATE OF SERVICE
Pursuant to Rule 29(5)(b) of the Rules of the Supreme Court of the United
States, I hereby certify that I have served a copy of the foregoing Amended
Application to the Honorable Justice Elena Kagan as Circuit Justice by Federal
Express overnight delivery on this date of April 24, 2020 upon the following counsel
of record:
Daniel Wolf
Law Office of Daniel Wolf’
1220 N Street, NW, Unit PH2
Washington, DC 20005
(202) 842-2170

George F. Carpinello
Adam R. Shaw
Boies Schiller & Flexner, LLP
30 South Pearl St.
Albany, NY 12207
(518) 434-0600

Counsel for Robert Radcliffe, et al.

Counsel for Robert Radcliffe, et al.

Charles Juntikka
Charles Juntikka & Associates, LLP
30 Vesey St., Suite 100
New York, NY 10007
(212) 315-3755

Daniel J. McLoon
Jones Day
555 South Flower St., 50th Floor
Los Angeles, CA 90071
(213) 489-3939

Counsel for Robert Radcliffe, et al.

Counsel for Experian Information
Solutions, Inc.

Stephen J. Newman
Stroock Stroock & Lavan, LLP
2029 Century Park East, 16th Floor
Los Angeles, CA 90067
(310) 556-5800

Cindy Hanson
Troutman Sanders, LLP
600 Peachtree St., NE
Suite 3000
Atlanta, GA 30308
(404) 885-3830

Counsel for Trans Union, LLC

Counsel for Equifax Information
Services, LLC

/s/ Michael A. Caddell
Michael A. Caddell

–4–

